<html>
<title> - THE TROUBLING CASE OF MERIAM IBRAHIM</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                  THE TROUBLING CASE OF MERIAM IBRAHIM

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 23, 2014

                               __________

                           Serial No. 113-199

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

88-830 PDF                     WASHINGTON : 2014
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001













                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas
CURT CLAWSON, Florida

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina





















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Zuhdi Jasser, M.D., Commissioner, United States Commission on 
  International Religious Freedom................................     8
The Honorable Tony Perkins, president, Family Research Council...    19
The Honorable Grover Joseph Rees (former General Counsel, U.S. 
  Immigration and Naturalization Service)........................    32
Mr. Omer Ismail, senior policy advisor, Enough Project...........    41

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Zuhdi Jasser, M.D.: Prepared statement...........................    11
The Honorable Tony Perkins: Prepared statement...................    22
The Honorable Grover Joseph Rees: Prepared statement.............    35
Mr. Omer Ismail: Prepared statement..............................    43

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
Zuhdi Jasser, M.D.: USCIRF Sudan Policy Brief....................    64

 
                  THE TROUBLING CASE OF MERIAM IBRAHIM

                              ----------                              


                        WEDNESDAY, JULY 23, 2014

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order.
    Let me begin by, again, expressing my apology for the 
lateness of our start. We did have two votes, recorded votes. 
They went longer than anyone could have anticipated.
    For weeks this spring the world watched as Meriam Ibrahim, 
a pregnant Christian woman in Sudan, faced flogging and the 
death penalty because her government would not accept that she 
had lived her life as a Christian and married a Christian man. 
Meriam has demonstrated both courage and grace under pressure, 
giving birth in jail in May, while chained, and caring for her 
two children, including her newborn, not only under restraints 
but without the normal amenities that any pregnant woman and 
nursing mother should expect.
    The harsh application of Sharia law on non-Muslims was the 
trigger, and everyone knows this, for the two-decade-long civil 
war in Sudan that eventually led to the secession of the South. 
Sudan is one of 20 countries in the world who have laws against 
apostasy, defined as the abandonment by an individual of his or 
her original religion.
    In Sudan, apostasy is effectively considered leaving the 
Muslim faith, particularly the interpretation of Islam followed 
by authorities there. In Sudan, to leave the Muslim faith is an 
automatic death sentence. If you are considered an apostate, 
you cannot legally marry someone of another faith, and for this 
Meriam was also charged with adultery and sentenced to 
flogging.
    However, this story is not just about harshly applied 
religious and legal principles in violation of national and 
international law. Daniel Wani, Meriam's husband, is a 
Christian, who is a dual American and South Sudanese citizen. 
He has lived in the United States for more than a decade. He 
married Meriam in late 2011, and they had a son a year later.
    Somehow, the U.S. Embassy in Khartoum could not find a way 
to help bring this American to get his family out of Sudan 
before the crisis developed. Even after she was arrested and 
released last year on charges involving apostasy.
    Today's hearing is intended to examine the facts as we know 
them and to determine how strictly applied rules almost led to 
the officially sanctioned beating and execution of a young 
woman who has lived as a Christian all of her life, but who has 
now been told that she has no right to choose her religious 
belief.
    This hearing was originally scheduled to take place in 
June, but at the urging of Sudanese officials and Mark Meadows, 
who has been doing yeoman's work on this issue, and some in our 
Government, we postponed it to allow for quiet diplomacy to 
take place. However, Meriam's legal entanglements seem to be 
increasing now rather than diminishing.
    We intend for this hearing to be a strong appeal to the 
Government of Sudan to use their legal authority to end the 
official entanglements Meriam has faced since her arrest in 
January and subsequent trial. A Sudanese court initially ruled 
that the mere fact that her father was Muslim means that she 
should have been raised as a Muslim. She was given 3 days to 
convert to Islam, but she told authorities she would not 
abandon her Christian faith. Her refusal to leave the faith she 
had practiced her entire life led to her being in mortal fear 
for her life.
    Fortunately, a Sudanese appeals court believed that she 
considered herself Christian and overturned her conviction on 
apostasy and adultery charges. However, members of her family, 
allegedly, have appealed the overturning of her conviction. 
Meanwhile, the Government of Sudan rearrested Meriam for using 
South Sudanese documents in an attempt to leave the country 
while she was released on bail. That case is still pending.
    Finally, Meriam's family has filed a case in domestic law 
court to establish that she is Muslim and that her brother, who 
was unable to prove his legal connection in the original 
apostasy/adultery case, should be her legal guardian under 
Sharia law. The hearing date for at least part of that case is 
currently set for August 4, because she was not given a written 
summons to appear at a July 17 hearing on the matter.
    We cannot be absolutely certain of the exact chain of 
events that led to this situation. The Department of State 
understandably decided not to testify at this particular 
hearing, although this will become a hearing in a series of 
hearings until this is resolved. Daniel and Meriam are still in 
Sudan at this point, and we will invite the State Department to 
give a full accounting and any insights they might want to 
provide.
    Daniel and Meriam are still in Sudan, as we all know, at 
this point. Daniel is free to leave with his children, but has 
chosen of course to stay with his wife until she, too, can 
leave with her family. Since Meriam's conviction in May, a 
bipartisan, bicameral congressional coalition has worked 
tirelessly to undo the harsh penalties for her under the 
apostasy and adultery laws, and to secure her family's 
repatriation to the U.S.
    Contact was made with Daniel, as well as the U.S. Embassy 
in Khartoum, and the Sudanese Embassy right here in Washington. 
Eventually, the headquarters offices of both State Department 
and U.S. Citizenship and Immigration Services got involved. You 
know, one wonders why this matter had to come to a crisis stage 
before a means could be found to avoid what now seems to have 
been an inevitable outcome in this case.
    Daniel told congressional staff that he sought help from 
the U.S. Embassy in Khartoum, but was told that he should seek 
an attorney, since the situation was mostly focused on his wife 
who was not an American. This was the advice he received even 
when he was--when arrested and had his passport seized. An 
American citizen should expect more, I believe, from his 
government's representatives in a foreign country when the 
country's government has taken action against them.
    Sudanese officials do not have the right to force someone 
to be Muslim when they assert their beliefs to be otherwise. 
Under the principles of natural law, which are the basis of our 
governing documents and those of countries around the world, 
there are certain inalienable rights endowed by our Creator. 
The decision on how to worship our Creator is one of them.
    Elements in Sudan's Islamic clergy and in the government 
interpret the Koran, to give them license to tell people how 
they will live out their faith, whether they consider 
themselves Muslim or not.
    In Meriam's case, her father had been absent from her life 
since she was a small child. Her Christian mother raised her as 
a Christian. Sadly, Meriam is not the only Sudanese who chose 
differently on the matter of faith only to be faced with a 
death sentence for that choice. Sudanese activist Mahmoud 
Mohammed Taha was arrested and charged with apostasy in 1984 
for his efforts to end Sharia law in Sudan. He was subsequently 
executed.
    In some countries, Christian converts have been forced to 
renounce their faith and conform to the version of Islam 
favored by the government of that day. Some of these countries 
have constitutions that ostensibly guarantee religious freedom, 
even as they may also have laws that actually contradict those 
rights.
    Except for Malaysia, Oman, Qatar, Saudi Arabia, and the 
United Arab Emirates, the other 15 countries, including Sudan, 
have signed the International Covenant on Civil and Political 
Rights guaranteeing freedoms for their citizens.
    Article 18 of that document enshrines ``the right to 
freedom of thought, conscience, and religion.'' Speaking of the 
rights of the individual, that article also forbids ``coercion 
which would impair his freedom to have or to adopt a religion 
or belief of his choice.''
    Article 18 also guarantees ``the freedom to have or to 
adopt a religion or belief of his choice, and freedom, either 
individually or in community with others and in public or 
private, to manifest his religion or belief in worship, 
observance, practice and teaching.''
    The current report by the U.S. Commission on International 
Religious Freedom cites Sudan as a Country of Particular 
Concern due to its government's engaging in systematic, 
ongoing, and egregious violations of freedom of religion. 
According to USCIRF, Sudan is the world's most violent abuser 
of the right to freedom of religion or belief.
    Thankfully, we have the author of that law, the 
International Religious Freedom Act, Frank Wolf, who back in 
1998 authored that landmark legislation. And today testifying 
we have Zuhdi Jasser from the Commission, who recommends in his 
testimony that not only should the U.S. Government take 
appropriate actions against Sudan, as detailed in IRFA, but 
that our Government should also make freedom of religion and 
human rights a centerpiece of the U.S.-Sudan bilateral 
relationship, as that has not been the case to date.
    The troubling case of Meriam Ibrahim should warn of future 
incidents in which those who do not believe in Islam are 
defined by the government, are persecuted, or placed in fear of 
death or torture. We, again, appeal to the Government of Sudan 
to use all legal means at its disposal to free her, this 
courageous young woman, allow her to pursue her faith and join 
her husband in the United States.
    I would like to yield to a friend and colleague, the 
ranking member, Ms. Bass.
    Ms. Bass. Thank you, Mr. Chairman, for your leadership and 
for convening today's hearing. I would also like to thank our 
distinguished witnesses, and I look forward to hearing your 
perspective on the socio-political context in Sudan as it 
relates to this case, the legal framework, as well as adultery 
laws and information on the limitations on religious freedom.
    As we prepare to hear from today's witnesses, I hope we can 
learn critical lessons from their experiences and use them to 
increase awareness and support for the improved protections of 
human rights and religious freedom in Sudan.
    I am also interested in hearing an update on the case. I 
met not too long ago with representatives from the Embassy, and 
it was my understanding that this case was going to be resolved 
very soon. So I will be interested to hear your updates.
    Thank you very much. I yield back my time.
    Mr. Smith. Thank you very much.
    I would like to now yield to a gentleman on the committee, 
Mark Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. And thank each one of 
you for your valuable time in coming here, and I think the 
fundamental question for all of us is, is this a day where 
truly religious freedoms of all faiths are going to be upheld 
and valued in America? And with that, it is critical history 
shows us--and it is not about--just about Christian faith. It 
is of many faiths. History shows us that time and time again 
when we don't value that the outcome is tragic.
    And so I thank each one of you for coming today to spend 
your valuable time to not only continue to intercede on behalf 
of Meriam, but to also make it a reminder to those of us in a 
freedom-loving world that it is critical that we stand on those 
foundations of upholding religious liberty. If there are 
policies that we can use to go more toward valuing that, I look 
forward to hearing from each of you on that particular subject.
    I yield back, Mr. Chairman, and thank you for your 
leadership.
    Mr. Smith. Thank you, Mr. Meadows. And I want to thank you 
for the meetings that you arranged with the Ambassador in an 
attempt to try to do this as efficaciously as possible, and the 
meeting that you did convene was I think a very important one, 
but still, it has not yielded the result that we are all hoping 
and praying for, but thank you for that leadership.
    Mr. Pittenger.
    Mr. Pittenger. Thank you, Mr. Chairman, for allowing me to 
participate and for holding this hearing of such great 
importance. I commend you for your tireless dedication, as 
always. I have watched you now for the last 30 years bringing 
the right of freedom of religion to everyone in the world.
    I would also like to thank the witnesses for appearing 
before us today and for the dedication you have shown to 
defending human rights and religious freedoms, freedoms of 
conscience throughout the world.
    The case of Meriam Yahia Ibrahim Ishag is tragic, a story 
now, regrettably, that is being told throughout the world, 
she--a young woman imprisoned because she has chosen to be a 
believer and follower of Jesus Christ. Her punishment for 
following her faith, for refusing to convert to a religion she 
does not believe in, death by hanging.
    The Sudanese Government declared her marriage to a 
Christian man unlawful, and, therefore, convicted her of 
adultery, punishable by 100 lashes. Thankfully, an appellate 
court overruled both of these convictions, but Ms. Ishag still 
is not free. While trying to leave Sudan with her husband and 
children, one which she gave birth to while she was in prison, 
the family was again detained on claims of using false travel 
documents.
    Here is a family simply trying to believe in their own 
convictions and live out their faith, trying to practice their 
own religion, and this is what they have been subjected to. 
While Ms. Ishag's case has garnered significant media 
attention, we must remember that denial of the basic human 
right to religious freedom is not an isolated case.
    As members of the United States Congress, it is vital that 
we continue to shine light on all of the cases of injustice and 
for the United States to continue exerting whatever pressure we 
can on governments who so blatantly and obviously infringe upon 
those rights.
    Thank you, Mr. Chairman, and I do yield back.
    Mr. Smith. Mr. Pittenger, thank you very much for your 
comments and your leadership.
    We now yield to Chairman Frank Wolf. And, again, he is the 
author of the International Religious Freedom Act, landmark 
legislation that finally, at long last in 1998, put religious 
freedom as a core element of our U.S. foreign policy. Chairman 
Wolf?
    Mr. Wolf. Thank you, Mr. Chairman. I want to thank you for 
having the hearing. I think, as Mr. Pittenger said, you have 
probably done more than anybody else in the time that I have 
served here, so I want to thank you.
    I want to thank the witnesses. I think there are two 
points. I think our State Department is failing us. We have 
seen their lack of action on people in Korea. We have seen 
their lack of action with regard to people in Vietnam. We have 
seen their lack of action to not even visit Liu Xiaobo's house 
in China when he is the Nobel Prize winner, and his wife is not 
well, and we see the fundamental weakness.
    And we have also seen the failure of this administration 
with Pastor Abedini. I mean, Pastor Abedini and his wife, they 
are American citizens and we can't even get them to do 
anything, nor will the Secretary meet with them. So this is not 
a surprise.
    Secondly, I think I would just separate myself out from the 
State Department. Weakness is never good. And we are weak. We 
are perceived as weak. Now, I say somewhere out there--and I 
can almost predict who--there is a representative or two of the 
Sudanese Government. They are going to listen. They are going 
to send a message back to al-Bashir who is an indicted war 
criminal. Indicted war criminal. Two-point-one million people 
died in the North-South battle. He has blood on his hands.
    So this ought to be a test. If Meriam is not out in 2 or 3 
weeks, the word should go out they will never be off the list. 
They will always be on the terrorist list. There will always be 
sanctions. We will bring the government down. What they are 
doing with the Nuba Mountains, what they are doing with regard 
to Darfur, they were responsible for the genocide in Darfur and 
it still continues today.
    So they are going to look to see how strong you are. One of 
them out there--they may have a law firm working for them, 
too--will come back and tell them, ``If Meriam is not out in 2 
weeks, never should they ever be taken off the sanctions 
list.'' And we should make sure the U.N. tracks al-Bashir down 
when he goes to Egypt, or wherever he goes, and bring him so he 
goes to The Hague and stands as a criminal.
    And thank you for having the hearing.
    Mr. Smith. Chairman Wolf, thank you very much.
    Mr. Cotton.
    Mr. Cotton. Thank you, Chairman Smith, and Ranking Member 
Bass, for letting me join your subcommittee today, first off. 
Second off, I would like to closely associate myself with the 
remarks of Frank Wolf, a great champion in the United States 
Congress for religious liberty. It is a travesty that Meriam 
was detained at all in Sudan, or that her detention has 
continued. I agree with Mr. Wolf she should be released 
posthaste, if not in 2 weeks from now.
    But it is troubling that this is part of a pattern more 
broadly throughout the Middle East and North Africa, and, 
regrettably, all around the world. Twenty countries now have 
laws penalizing apostasy, and eight of those can legally impose 
the death penalty for apostasy, for nothing more than being a 
follower of Jesus Christ.
    I saw this kind of persecution firsthand when I was a 
lieutenant with the 101st Airborne in Iraq and Baghdad in 2006, 
Christian churches being vandalized and Christians being 
persecuted and driven out of their homes and neighborhoods. We 
see it again today in Mosul as the Islamic State is driving 
Christians out of that city where they have lived almost since 
the times of Jesus Christ.
    As a country that was founded by religious refugees, and 
for whom religious freedom is our very first freedom, it is 
incumbent upon us in this institution, as well as the President 
and the State Department, to rectify the injustice, not just 
when it involves Americans, like Pastor Abedini or Meriam and 
her family, but to the greatest extent we can all around the 
world.
    Thank you.
    Mr. Smith. Mr. Cotton, thank you so very much, and thank 
you for your extraordinary military service.
    I would like to now introduce our distinguished panel. We 
are very fortunate to have four very knowledgeable and eminent 
individuals to provide testimony to the committee, beginning 
with Dr. Zuhdi Jasser, who is a member of the U.S. Commission 
on International Religious Freedom. He is also the founder and 
president of the American Islamic Forum for Democracy.
    Dr. Jasser is a first generation American Muslim whose 
parents fled the oppressive Baathist regime of Syria. He earned 
his medical degree in the U.S. Navy, on a U.S. Navy 
scholarship, and served 11 years in the Navy. Dr. Jasser has 
testified before Congress before, including before our 
subcommittee, and has briefed members of the House and Senate 
frequently on issues related to religious freedom.
    We will then hear from The Honorable Tony Perkins, who is 
president of the Family Research Council. He is a former member 
of the Louisiana legislature where he served for 8 years, and 
he is recognized as a legislative pioneer. Since joining FRC in 
the fall of 2003, he has launched new initiatives to affirm and 
defend the Judeo-Christian values upon which this nation was 
founded.
    Tony Perkins and FRC have led the way in defending 
religious freedom. He hosts a daily national radio program and 
broadcasts a daily commentary heard on over 300 stations 
nationwide. His daily email update is sent to tens of thousands 
of individuals throughout this country and in the world.
    We will then hear from Ambassador Grover Joseph Rees, who 
has served as the first United States Ambassador to East Timor, 
and as Special Representative for Social Issues in the U.S. 
Department of State where he was responsible for promoting 
human dignity, including issues affecting vulnerable persons 
and the family within the U.N. system.
    He was also a senior staff member of this committee. As a 
matter of fact, he was general counsel and staff director, 
where he was responsible for human rights and refugee 
protection, and he played a major role in drafting an enactment 
of important human rights legislation including the Trafficking 
Victims Protection Act, International Religious Freedom Act, 
and the Torture Victims Relief Act.
    Of high significance as well, he served as general counsel 
of the U.S. Immigration and Naturalization Service and was 
extremely knowledgeable, especially in fighting against the 
forced repatriation of many, including the Vietnamese boat 
people.
    As a direct result of his work, some 20,000 Vietnamese who 
were sent back were brought to this country, were rereviewed 
when they were improperly screened out as refugees. So I want 
to publicly acknowledge the extraordinary work that he did to 
ensure the safe immigration of those people, those Vietnamese 
boat people, to the United States.
    And, finally, we will hear from Mr. Omer Ismail, who was 
born in the Darfur region of Sudan and spent over 20 years 
working both independently and with international organizations 
on relief efforts in human rights. He fled Sudan in 1989 as a 
result of his political views and helped found the Sudan 
Democratic Forum, a think-tank of Sudanese intellectuals 
working for the advancement of democracy in Sudan.
    In addition, he co-founded the Darfur Peace and Development 
Organization to raise awareness about the crisis in this 
troubled region. He currently works as policy advisor to 
several agencies working in crisis management and conflict 
resolution in Africa.
    Thank you as well for your leadership and for being here. I 
would like to begin with Dr. Jasser.

 STATEMENT OF ZUHDI JASSER, M.D., COMMISSIONER, UNITED STATES 
         COMMISSION ON INTERNATIONAL RELIGIOUS FREEDOM

    Dr. Jasser. Thank you, Chairman Smith, and Ranking Member 
Bass, and members of the subcommittee. Thank you for the 
opportunity to testify on the extremely troubling case of 
Meriam Ibrahim. I ask that my written testimony be submitted 
for the record.
    Mr. Smith. Without objection, so ordered.
    Dr. Jasser. Meriam Ibrahim's case must--must continue to 
draw international attention until she and her family leave 
Sudan for freedom in the United States. Even then, the 
international community must continue to focus on Sudan, 
because while Meriam's case is among the most egregious, it is 
only the latest example of the Sudanese Government's deplorable 
religious freedom and human rights record. It is simply the tip 
of the iceberg, as we have heard from many of your comments.
    This record has earned Sudan a Country of Particular 
Concern (CPC) designation since 1999 from not only our 
commission but also from the State Department. The government 
imposes a restrictive interpretation of Sharia law on Muslims 
and non-Muslims alike, and charges individuals with the capital 
crime of apostasy, flogging Sudanese for undefined acts of 
indecency and immorality, and arrests, threatens, harasses, and 
discriminates against Christians and others with minority 
views.
    These religious freedom violations, along with the violence 
in Southern Kordofan, Blue Nile, and Darfur, derive from 
President al-Bashir's policy of Islamization and Arabization.
    Meriam's ordeal began with her February 17 arrest--here is 
a picture of her from before her arrest. At that time, her 
brother reported to the police that she had left Islam to marry 
a Christian man, a capital crime in Sudan. The Sudanese 
Government's application of Sharia law prohibits a Muslim woman 
from marrying a Christian man. However, while Meriam was born 
to a Muslim father and an Ethiopian Orthodox mother, her father 
left the family when she was six, and she was essentially 
raised a Christian.
    Meriam was convicted on May 15 of apostasy and sentenced to 
death by hanging. Because the court did not recognize her 
marriage, she was also found guilty of adultery and sentenced 
to 100 lashes. While imprisoned, Meriam gave birth on May 27 to 
her baby daughter, who was detained with her and her 2-year-old 
son.
    On June 23, an appeals court cancelled the apostasy charges 
and death sentence, most likely due to the international 
attention that many of you and others have brought, and ordered 
her release from prison. She and her family then were detained 
on June 24, a day later, in Khartoum's airport when they sought 
to leave the country, after which she was held with her family 
at a police station, and then arrested again on document fraud 
charges. Since June 27, she and her family now remain in Sudan, 
safely, as the Sudanese Government continues to block their 
departure from the country.
    On July 17, Meriam's brother, alleged brother, challenged 
the appeal that had overturned her apostasy and adultery 
convictions. The Sudanese Supreme Court has up to 3 months to 
review the brother's court action. And that is her current 
status.
    Meriam's ordeal reflects more deeply the Sudanese 
Government's enforcement of a rigid ideology against Sudan's 
religiously diverse population, particularly non-conforming 
Muslims and Christians. As detailed in our commission's 
November 13 policy brief, which we have available in the back--
I request that that also be submitted for the record.
    Mr. Smith. Without objection, it will be made a part of the 
record.
    Dr. Jasser. Thank you. The Sudanese Government has 
implemented Sharia law for more than 30 years, with the 1991 
Criminal Code Act being the cornerstone of that implementation. 
The Act addresses offenses that violate public order and carry 
the death sentence for apostasy, stoning for adultery, prison 
sentences for blasphemy, and floggings for undefined offenses 
of honor, reputation, and public morality.
    Since 2011, there has been an alarming increase in the 
number of persons arrested and found guilty of what are called 
hudood offenses, with the most dramatic increase in the number 
of those such as Meriam arrested for apostasy, carrying an 
automatic death sentence. For example, in the past 3 years 
alone, more than 170 persons have been arrested, the majority 
of whom practice a version of Islam which differs from that of 
the ruling National Congress Party of al-Bashir.
    Government pressure on Christians in Sudan has also 
increased since South Sudan's 2011 independence, with the 
government announcing in July that it no longer would issue any 
permits--this is just a few weeks ago--for new church 
buildings. In the last several years, at least 11 churches have 
been attacked and others threatened. Individual Christians have 
also been arrested, threatened, and harassed, in Nuba, and 
South Sudanese Christians continue to be arrested and deported.
    The Sudanese Government also discriminates against its 
minority Christian community by promoting conversion openly to 
Islam, prohibiting foreign church officials from traveling 
outside Khartoum, using school textbooks that negatively 
stereotype non-Muslims, and giving preferential treatment to 
Muslims in employment and services and in court cases involving 
Muslims against non-Muslims.
    So what can we do? Meriam's case underscores the need for 
the U.S. Government to do the following. First, we need to 
continue to advocate tirelessly for Meriam and her family to 
immediately leave Sudan and that all charges against her be 
dropped, and all prisoners who have been jailed on account of 
their religion or belief also be released and the charges 
against them be dropped.
    Second, we need to redesignate Sudan as a CPC and take 
appropriate actions that follow thereof. We also need to make 
religious freedom and human rights a centerpiece of the U.S.-
Sudan bilateral relations, and take the conversation beyond 
simply being the issue of violence.
    We need to press the Sudanese Government to engage in an 
inclusive and transparent constitution drafting convention. We 
also need to require before normalizing relations or lifting 
sanctions, that the Sudanese Government abide by international 
standards of freedom of religion and belief. And we must also 
support all those civil society groups monitoring the 
implementation of the public order laws and advocate for their 
immediate repeal.
    We must hold the Sudanese Government accountable to protect 
and respect freedom of religion or belief, not only for Meriam 
Ibrahim but for all Sudanese.
    Thank you.
    [The prepared statement of Dr. Jasser follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Dr. Jasser, thank you very much for your 
testimony.
    The Honorable Tony Perkins.

  STATEMENT OF THE HONORABLE TONY PERKINS, PRESIDENT, FAMILY 
                        RESEARCH COUNCIL

    Mr. Perkins. Thank you, Chairman Smith, Ranking Member 
Bass, and members of the subcommittee. I want to thank you for 
not only the opportunity to address the situation of Meriam 
Ibrahim, but also for the work that this subcommittee has done 
on religious liberty around the world. And with that, I want to 
briefly address the broader issue of religious liberty 
internationally.
    I would like to address the why and the how. First is the 
why. Now, I am here, as many have tracked the media reports 
that have been out there, some accurate, some not. I have 
worked with members of this committee, other Members of 
Congress, and I have also engaged in conversations, ongoing 
conversations, with Sudanese officials.
    The why we are here I think is very clear. We are here 
because of the courage of a 27-year-old mother, a 27-year-old 
mother. If you will, just for a moment, imagine the situation 
in a prison in Khartoum which the U.N. says has an infant 
mortality rate of one child a day dying in that prison. At her 
side, 8 months pregnant, is a 20-month-old boy, and she is told 
that if she will denounce her faith in Jesus Christ, there is 
the door, you can be a free person. But, yet, she refused to 
denounce her faith because she had the courage to stare death 
in the face.
    What has America done? Where is the courage in America to 
speak out for those who are suffering at the hands of dictators 
who refuse to recognize not an American right, but a human 
right? A human right of religious freedom, to determine the 
destiny of one's own life, to live your life according to your 
own conviction and your faith. Why the silence in America?
    Now, you might be tempted to say, ``Well, this is just one 
case. Why the big deal?'' This is not an isolated case, as Dr. 
Jasser said, but just in April another individual who the 
attorneys have asked that the name not be used, was detained 
under the same charges of apostasy and facing the same possible 
outcome.
    We also have to consider Daniel, her husband, American 
husband that has been referenced here, a man who is bound to a 
wheelchair, who was powerless to do anything to secure the 
freedom of his wife and his children, and yet he went to the 
State Department waiting for them to act on behalf of his 
children and his wife, and there was silence until just 
recently.
    Now, while other governments have called attention to 
Meriam's situation, including the European Parliament passing a 
resolution, and the British Government's Prime Minister 
speaking publicly, as I said, the U.S. Government has been 
practically mute. Even after multiple activist organizations 
initiated petitions with hundreds of thousands of signatures, 
the U.S. Government's disinterest in the plight of an American 
and his family is simply indefensible.
    And, of course, we do this ignoring the International 
Religious Freedom Act of 1998, which states that

        ``It shall be the policy of the United States to 
        condemn violations of religious freedom and to promote 
        and to assist other governments in the promotion of the 
        fundamental right to freedom of religion.''

    The United States has clearly failed to adequately condemn 
this violation or to speak out clearly and with conviction and 
courage on behalf of Meriam.
    Religious freedom is increasingly under attack around the 
world today. According to Pew Research Center, as of 2012, 
Christians continue to be harassed in more countries than those 
of any other faith, Muslims not far behind.
    Religious freedom is a fundamental inherent in 
international human right. Yes, it is a core American ideal, an 
ideal that we should defend at home and abroad. And a warning 
should be sounded across America that an indifference to 
religious persecution abroad can only lead to greater religious 
intolerance here at home.
    Now, the binding International Convention on Civil and 
Political Rights, which there has been a reference to, ICCPR, 
explicitly states,

        ``Everyone shall have the right to freedom of thought, 
        conscience, and religion. This right shall include 
        freedom to have or to adopt a religion or a belief of 
        his choice and freedom, either individually or in 
        community with others in public or private, to manifest 
        his religion or belief in worship, observance, 
        practice, and teaching.''

And that is binding.
    U.S. inaction overseas is all the more troubling when U.S. 
citizens are involved as has been referenced, such as Daniel 
Wani, Pastor Saeed Abedini detained in Iran, and Kenneth Bae in 
North Korea.
    And I want to point out the U.S. indifference to religious 
hostility is not limited by political party. It was under the 
George W. Bush administration's allowance of blasphemy laws 
under the new Afghan constitution that almost led to the 
execution of Abdul Rahman, a Muslim convert to Christianity, 
who only escaped with the assistance of the U.N. when he was 
offered asylum in Italy.
    It is difficult to look at these facts and not understand 
them in light of the current administration's unilateral 
reinterpretation of religious freedom domestically. This 
administration believes religious belief should be quarantined 
to private spaces and excluded from the public space.
    This truncated view of religious freedom domestically, more 
accurately described as the freedom of worship, is matched by 
the administration's failure to even address the growing 
threats to religious freedom internationally. Indeed, U.S. 
Secretary of State John Kerry only commented on Meriam 
Ibrahim's case after international outcry over her plight made 
it impossible for them to remain silent.
    Now, there is more reasons we should be involved and 
concerned about religious freedom. There is a growing body of 
research that points to nations that protect religious freedom 
as nations that have freer economic markets, and, therefore, 
greater economic stability and prosperity.
    This religious intolerance, as evidenced in Sudan, must be 
condemned in its own right, yet such intolerance is also 
harmful because it stifles economic growth in countries that 
need economic growth greatly. In turn, the lack of economic 
growth fosters instability and a lack of security.
    There is the why. What is the how? Religious freedom should 
be a central priority in U.S. diplomatic and strategic 
engagement worldwide in order to promote freedom for its own 
sake as well as for reasons of global stability and security. 
The U.S. and this committee must seriously consider making 
human rights and religious freedom a central component of U.S. 
international aid contributions. In short, promoting religious 
freedom promotes societal well-being at home and abroad.
    We must--in this particular case, the administration should 
specifically work to ensure Meriam's children are immediately 
granted U.S. citizenship as all of the proper documents have 
been submitted and continue to provide Meriam and her family 
physical protection while they are in Sudan. Their lives are at 
risk. Provide Meriam and her family the proper medical care. 
There are reports that the child, Maya, was injured at birth. 
We need to make sure that they have the proper medical care. 
And then we must pressure the Sudanese Government to ensure 
that legal proceedings conclude quickly, as in yesterday.
    And then, secondly, we must urge Congress to pass H. Res. 
601, the Trent Franks resolution that condemns the treatment of 
Meriam Ibrahim and pressures the administration to act in 
accordance with the United States' responsibility to be a 
strong advocate for religious freedom generally, and Meriam 
specifically.
    It was Meriam's courage that brought us here today. Now, it 
is our turn to act with courage to bring Meriam and her family 
to America.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Perkins follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you so very much, Mr. Perkins, for your 
testimony.
    Ambassador Rees?

 STATEMENT OF THE HONORABLE GROVER JOSEPH REES (FORMER GENERAL 
     COUNSEL, U.S. IMMIGRATION AND NATURALIZATION SERVICE)

    Ambassador Rees. Thank you. Mr. Chairman, Madam Ranking 
Member, and members of the subcommittee, thank you so much for 
the opportunity to testify at this timely and important 
hearing, and I am very honored to be on a panel with these 
extremely distinguished and dedicated witnesses. Thank you.
    I have been asked to testify on a narrow question about the 
citizenship of the two children. Whether the two children of 
Meriam Ibrahim and Daniel Wani are United States citizens who 
should be given appropriate documentation of their citizenship, 
and who should be afforded such protection and assistance as 
the Government of the United States typically gives its 
citizens who are residing or visiting in other countries.
    Now, United States citizenship law with respect to children 
born overseas to a United States citizen is fairly 
straightforward. Section 301 of the Immigration and Nationality 
Act provides in pertinent part that when a child is born 
outside the United States and its possessions to parents one of 
whom is a United States citizen and the other of whom is a 
foreign national, the child is a citizen at birth, provided 
that the U.S. citizen parent has lived in the United States for 
at least 5 years before the birth and that 2 of those years 
were after the parent had reached the age of 14.
    Looking at the facts of the case, which have been set forth 
by other witnesses, and lining them up against the law, it 
seems pretty clear that these two children are United States 
citizens and should be certified as such. The two parents were 
married at the time of both births. Mr. Wani is listed on the 
birth certificate of Martin, the oldest child, as the father. 
There is as yet, I understand, no birth certificate for Maya, 
who was born while her mother was in prison. But there is no 
reason to think that anyone else will be put as the--will be 
listed as the father on that birth certificate.
    It would seem that the application for a Certificate of 
Citizenship or for a Report of Consular Birth Overseas should 
have been granted, yet Mr. Wani says it wasn't. Importantly, by 
the way, Section 309 of the Immigration and Nationality Act 
sets forth some additional requirements for children born out 
of wedlock. If the parents are not married at the time of the 
birth, there has to be ``clear and convincing evidence'' of the 
blood relationship between the child and the United States 
citizen parent.
    Importantly, that provision does not apply to children who 
were born of a marriage of the parents. And yet Mr. Wani says 
that he has been asked to provide a DNA test. So what it looks 
like is that the State Department is applying the test--the 
consular officer in question is applying the test that the 
statute provides for out-of-wedlock births instead of the one 
that is provided for children born in marriage.
    Now, some supporters of Mrs. Ibrahim have said that this 
must mean that our Government is applying Sharia law to the 
case, because if the law is--if the marriage is not recognized 
under Sudanese law, then they are not married, and he would 
have to meet the test of blood relationship by clear and 
convincing evidence, and perhaps a DNA test would be 
appropriate.
    I can't say that is not what the consular officer was 
thinking. I don't know. But I think that unfortunately this may 
be indicative of a broader attitude, a broader culture of 
negativity and denial, that many of us who work in the 
immigration and citizenship area have encountered not only in 
this case, not only in cases involving Sudan or involving 
Christians, but in cases across the board and around the world.
    I am an alumnus of the Immigration and Naturalization 
Service, and I worked with many fine and conscientious people. 
But we often had to confront this idea that our job was to turn 
everybody down and then somebody would straighten it out later 
on if we were wrong.
    I later learned working with the--I used to say we either 
needed to change our attitude or we needed to change the sign 
on the door to say ``Anti-Immigration and Naturalization 
Service.'' And I later learned working for the State Department 
and working for this committee that that culture of denial is 
even more robust, unfortunately, in the consular corps than in 
the Immigration Service.
    This doesn't happen because consular officers or 
immigration officers are bad people. Most of them are fine and 
decent and conscientious people. It happens partly because they 
really do encounter fraud. They really do encounter frivolous 
applications. And we all know the adage ``Once bitten, twice 
shy.'' I think a corollary of that is that if you are bitten 
four or five times you are probably shy the rest of your life.
    Consular officers also work typically in--a lot of what 
they do involves non-immigrant visas. And for non-immigrant 
visas, tourist visas, visitor visas, the law says that you are 
presumed to be an intending immigrant. That is, you are 
presumed to be lying until you can prove to the satisfaction of 
the officer that you really will return to your home country 
according to the terms of your visa.
    Now, the problem is that a lot of consular officers seem to 
carry over that extreme skepticism which is required by law in 
some cases to cases where the law doesn't require it, including 
the provision of documentation and other consular services to 
United States citizens.
    Now, I want to suggest--in my written testimony, which I 
hope will be accepted for the record, I have given some 
specific language in the Foreign Affairs Manual that seems to 
encourage consular officers in this attitude that somehow 
citizenship is a benefit that they are conferring, and that 
they have discretion, and that they ought to do the same kind 
of investigation in a case involving a married couple, a child 
of a married couple, as they would in an out-of-wedlock case 
under the statute.
    I do want to say that it is possible that the facts of the 
case--there could be facts known to the consular officer that 
would justify requiring further evidence, not just the fact 
that the parents were married and that the father is on the 
birth certificate. For instance, if Mr. Wani's passport showed 
that he hadn't been in Sudan at any relevant time when the 
child could have been conceived, then it would be reasonable to 
ask for more evidence.
    That is not what Mr. Wani said happened. He says that from 
the very beginning when he approached the consular officer he 
was told ``I don't have time.'' He said that the consular 
officer was rude and high-handed.
    If that happened, it was a violation of the law. When a 
consular officer denies a visa to somebody who is eligible for 
that visa, that might be bad policy. That might be a bad 
decision. But that is within the discretion of the consular 
officer. But citizenship is not a benefit. The consular officer 
isn't making you a citizen by giving you the certificate. You 
either are or you are not a citizen.
    And if a consular officer denies the appropriate 
documentation, appropriate assistance and protection, to a 
United States citizen, he or she is not just making bad policy, 
not just making a bad decision, he or she is violating the law.
    I am happy to say that the State Department--that I am 
proud of our Government, that in the last few weeks they seem 
to be making amends. They seem to be providing Mrs. Ibrahim and 
her family with the appropriate attention and care and are 
really working to solve this case. It is nice to know that 
first principles can sometimes trump institutional cultures and 
institutional concerns. In this case, the principle is that we 
Americans do not leave our own in harm's way.
    Thank you very much.
    [The prepared statement of Ambassador Rees follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Ambassador Rees, thank you very much. And 
without objection, the additional information you would like to 
make a part of the record is so ordered.
    Mr. Ismail.

  STATEMENT OF MR. OMER ISMAIL, SENIOR POLICY ADVISOR, ENOUGH 
                            PROJECT

    Mr. Ismail. Thank you, Chairman Smith, Ranking Member Bass, 
and honorable members. I am honored to be here to appear before 
you to testify in this important case of Meriam Ibrahim, and I 
kindly request that my testimony be included in the record.
    My testimony is going to focus on showing that this is not 
an isolated case. The case of Meriam Ibrahim is not an isolated 
case. It is a pattern of behavior that the Government of Sudan 
has demonstrated through the years.
    Ten years ago yesterday, the United States Congress 
determined that the violence that plagued the Darfur region of 
Sudan is a genocide perpetrated by the country's own 
government. The brutal Janjaweed militia that is recruited, 
armed, and financed by the Government of Sudan rode through the 
villages terrorizing civilians, raping women, burning homes and 
markets, and destroying the livelihood of a great number of 
communities.
    That same tyrannical government is persecuting Meriam 
Ibrahim and sentenced her to death by hanging because of her 
religious convictions. The Government of Sudan is the main 
perpetrator and culprit in the violence across Sudan that is 
visited on millions of Sudanese who this government considers 
enemies for no other reason than being different from the image 
it sponsors. This government flaunts a brand of Islam and 
promotes a racial identity that is exclusive and divisive and 
met with widespread rejection and resistance among the majority 
of the Sudanese people.
    According to credible reports, Meriam Ibrahim was born to a 
Muslim father and a Christian mother, and she chose to be 
Christian. Meriam would not be considered a criminal in any 
democratic society that respects human rights because she would 
have the right to choose her religion and her life. The 
Government of Sudan, however, not only ignores its citizens' 
human rights, it disrespects its own constitution and the laws 
drawn from it.
    According to the Sudanese Interim National Constitute of 
2005, and I quote, ``Every person shall have the right to the 
freedom of religious creed and worship.'' In practice, the 
Government of Sudan does anything but adhere to its own 
contract with the Sudanese people.
    Shortly after the secession of the South of the country 
from the motherland became inevitable, President al-Bashir 
declared in Al-Gadarif in eastern Sudan in 2010 that Sudan 
would become a country ``with no racial or religious 
diversity.'' Successive events that took place thereafter 
proved that this statement was not a slip of the tongue but a 
government policy that spares no one who opposes it.
    The issue of racial diversity was dealt with by continuing 
the raging war in the periphery that, in addition to Darfur, 
witnessed unprecedented violence in the Nuba Mountains and 
South Blue Nile in addition to callously questioning dissent in 
the urban centers by killing students in cold blood and 
committing widespread rape and torture.
    The violence has led to hundreds of thousands of displaced, 
in addition to refugees that have fled to the neighboring 
countries, including the restive South Sudan. Food is used as a 
weapon of war, and the fate of close to 1 million Muslims, 
Christians, and practitioners of indigenous religions and other 
faiths is in jeopardy.
    The genocidal regime in Khartoum was not satisfied with the 
social engineering that it ushered in to distort the ethnic 
composition of the country, but it coupled that with a no less 
lethal policy of religious intolerance. In April 2012, an old 
church in the outskirts of Khartoum was burned down to the 
ground by a mob of supporters of an Islamic cleric who is a 
member of the government appointed Islamic Ulama Council.
    In addition, many Sudanese Christians complain about 
discrimination in getting jobs or in the workplace when they 
are employed, in addition to a general atmosphere of 
intimidation and intolerance. In academia, staunch 
fundamentalists were appointed to the faculty of the 
universities and devised syllabi to indoctrinate the students, 
and they banned all opposing activities in the schools.
    Furthermore, the State of Khartoum issued a decree banning 
all building permits for new churches and Christian schools, 
claiming that the capacity of the existing churches and schools 
is more than enough to serve the Christian minority of 3 
percent of the population. This figure was not supported by any 
census or any credible statistics.
    In the areas of the Nuba Mountains and the South Blue Nile, 
mosques, as well as churches, and the limited number of 
hospitals, are subject to indiscriminate bombing that is meant 
to scare civilians and drive them into the horrors of 
displacement. The government authorities and the security 
apparatus are used to harass people of different faiths other 
than Islam through intimidation and terror.
    The case of Meriam Ibrahim has backfired by making citizens 
more aware of the extent of the callous behavior that the 
government is willing to carry out in order to achieve its 
objective of remaining in power at any cost. Her case is also 
serving as a wakeup call to all peace-loving nations that this 
regime should be dealt with in a manner that will force it to 
alter its behavior.
    In conclusion, I respectfully ask this honorable 
institution, which represents the American people, to support 
the moderate Sudanese opposition that is working diligently for 
the democratization and the respect for human rights. The 
Sudanese Muslims and Christians and practitioners of other 
faiths deserve to live in peace among themselves and with other 
fellow human beings. History will look kindly at those who help 
them live in dignity and with the most sacred value of all, 
freedom.
    Thank you.
    [The prepared statement of Mr. Ismail follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Mr. Ismail, thank you very much.
    My understanding, Ambassador Rees, you will have to leave 
at 4:00?
    Ambassador Rees. My plane is running late, so I can leave a 
little bit after that. Thank you.
    Mr. Smith. That is great. Thank you. Let me just begin with 
a couple of opening questions, and then yield to my colleagues.
    First, as you said, Ambassador Rees, in your statement, in 
a CNN interview dated May 30, an interview of Daniel Wani by 
Nina Elbagir. This is Mr. Wani speaking in response to a 
question, ``Sadly, it is not the U.S. Government. When the 
problem began, the U.S. consul here had a very negative 
position on this. She was very high-handed. She was very, very 
rude. She said, and I quote, `I don't have the time.' ''
    If you could perhaps elaborate on this culture of denial 
that you mentioned earlier, because this has been a systemic 
problem that I and you, when you served as staff director for 
this committee and I have been in Congress now for 34 years, 
all over the world we encounter this, and I will give you a few 
examples.
    Tony Perkins mentioned Saeed Abedini. Saeed Abedini's wife, 
Nagmeh, was originally told, ``There is nothing we can do.'' 
Frank Wolf convened a hearing of the Lantos Commission and 
passionately called on the State Department and Secretary 
Kerry, and then they said that they will raise it, and 
Secretary Kerry did issue a statement.
    When Nagmeh came here, she was still bewildered by the lack 
of engagement on the part of the U.S. Government on behalf of 
this American being held by the Iranians. As we hold nuclear 
talks, human rights fell off the page, if you will.
    Chen Guangcheng, there were four hearings on Chen 
Guangcheng, and he was given back to the Chinese secret police 
under guard in a ``hospital'' where he could not leave, and 
there was an unbelievably porous assurance that Chen Guangcheng 
would be okay. That is what we were told.
    Thankfully, he testified by way of a phone call and said, 
``I want to come to America,'' and 6 hours later that 
permission was granted. And we had more press here than I have 
ever seen before and that helped his case.
    I had a couple of my constituents stuck in Abkhazia as well 
as in South Ossetia, so I went there. And I found out, to my 
shock and dismay, that the Consul General had said that this 
marriage, purported marriage, of an American who used to be a 
guard at the White House, so he had to be vetted quite 
effectively, and he was telling the truth, and this woman who 
was of Georgian origin was bogus, and, therefore, the little 
child who was in Abkhazia was stuck and literally was prostrate 
as Russian tanks went through her town, and obviously everybody 
was scared to death something might happen to her.
    And then, finally, Jacob Ostreicher, we have had several 
hearings on Jacob. He is finally out because of a private 
extradition effort, or an effort to ferry him out of the 
country by way of an automobile. At first we were told, and I 
was told this directly by the Embassy and by top people in the 
State Department, at his request I asked this question: If 
Jacob goes to the Embassy, will he be welcomed? Because he felt 
his life was in dire jeopardy. He even had for a while 
Venezuelan guards, of all things, guarding him when he was in 
the hospital. They said, ``We will put him out the door.''
    I made that phone call myself and heard that and just said, 
``Are you kidding?'' An American? I mean, we are supposed to be 
the oasis. So, Mr. Ambassador, if you could speak to this 
culture perhaps a little bit more, because I think there needs 
to be a sea-change of attitude, which, again, the IRFA bill, 
the religious freedom bill, was supposed to do about religious 
freedom.
    Part of that legislation had text in it about training 
Foreign Service Officers to understand the importance and 
centrality of religious freedom, and that trading has been very 
slight all these years. So if you could answer that question, I 
would appreciate it.
    Ambassador Rees. Well, Mr. Chairman, there are at least 
three things going on. One of them I have already spoken to, 
which is that you do get fraudulent applications, you do get 
frivolous applications. We are not supposed to grant those 
applications. And perhaps there is a natural human tendency 
when you have been snookered a couple of times to assume that 
the snookering level is 99 percent instead of some lower 
number, and that is just an occupational hazard of these kinds 
of jobs.
    A second--but we have all seen people in customer service 
jobs, which is what this is, who frankly have outlived their 
usefulness on those jobs and ought to go find other jobs. And 
so I think we do need to try to inoculate people against that 
tendency to deny good cases simply because some cases are 
fraudulent. And that is particularly true where you are dealing 
with people who may well be American citizens.
    The second thing has to do with the institutional culture 
of the State Department itself, broader than just consular 
officers. The State Department is a foreign ministry. A foreign 
ministry's main job is to deal with governments. With other 
foreign ministries, with governments of other countries. And 
these kinds of issues, these humanitarian issues, these human 
rights issues, these refugee issues, they complicate what many 
Foreign Service Officers see as their main job, which is to 
improve the relationship between the United States and that 
other government.
    Now, I am not suggesting that they are simplistic or one 
dimensional. Everybody knows that we have to pay attention to 
those other issues. But I don't think that the natural reaction 
of somebody who has to go deal with the foreign ministry in the 
country that he is living in every day, when he hears about a 
Meriam Ibrahim case, he is not going to say, ``Oh, boy, a 
chance to strike a blow for human freedom.''
    He might understand that is his duty. We hope he does. But 
it is not something that makes the State Department's life 
easier.
    The third thing with these high profile cases where Members 
of Congress involved is--as you know, I have seen it from both 
sides. I worked in Congress, I worked in the State Department. 
The executive branch in general, and the State Department in 
particular, hate to be told what to do by Congress. And so 
there is this faux integrity that gets built up, that we are 
not going to be politically influenced, we are going to do what 
we would have done anyway.
    Now, I don't want to say that happens all the time, and I 
do have to say, as I said in my testimony, that there are many 
fine and decent and conscientious people in the State 
Department, that many of them do the right thing even if it 
hurts their career. But I do think that institutions have 
institutional cultures, and that there are some of those 
tendencies that we need to fight.
    Mr. Smith. If you could answer that as well, but you 
mentioned, Dr. Jasser, about no CPCs, the fact that they have 
not been redesignated. And Robbie George, who was then the 
chairman of USCIRF, and now Katrina Lantos Swett has taken over 
that leadership as chairman, no CPCs have been named since 
2011, which I think is a huge abrogation of duty on behalf of 
the administration. Hopefully, they will do it soon and do it 
robustly, including all of those countries that need to be so 
named.
    But I think if you could speak to whether or not that sends 
a message to countries that are committing egregious violations 
of religious freedom, when we don't even do the designations 
anymore.
    Dr. Jasser. Thank you, Chairman Smith, and that really was 
the followup to Ambassador Rees' comments, is that, you know, 
we started a program on prisoners of conscience, that various 
members have adopted, if you will, various prisoners across the 
spectrum in many different countries because these cases, like 
Meriam Ibrahim, are emblematic of deeper problems typically, 
not only in Sudan but in every one of these countries where 
prisoners of freedom of conscience, of faith, belief, that are 
in prison simply because of their belief are a sign typically 
of more systematic, egregious, and ongoing violations of 
religious freedom and human rights related to that.
    So as a result, that is why you make the connection between 
these prisoners. And when we defend them, when our President, 
when our State Department, our Embassies defend these prisoners 
and say that we want them released and freed, it then sends a 
message that our freedoms that we defend at home, and our 
International Religious Freedom Act of 1998, actually means 
something. And we have been concerned at the Commission that 
there has been a stagnation, and there has been no designations 
of CPCs since 2011.
    The lists, while there is no disparity on Sudan, we have--
both the State Department and our commission agrees that they 
are a CPC, they have not redesignated them since 2011, and we 
hope that when their report comes out they follow that quickly 
with a designation.
    So it is important that when these designations are made it 
sends the message that we believe that there is egregious and 
ongoing violations, and, as a result, it carries with it the 
sanctions that the law--the statute provides. And I think that 
is how we translate the plight of people like the brave and 
courageous people like Meriam Ibrahim that get translated into 
a process and policy that means that, then, religious freedom 
becomes the centerpiece.
    And most studies have shown recently repeatedly that 
countries that honor these principles then become more 
successful economically and more secure and less threats of 
terrorism and regionally become better actors in the world. So 
this is why I think it is very important that this be 
highlighted, and they have not do so. And we hope--their report 
is supposed to be coming out this week. I think it has been 
delayed again, and hopefully it will be followed by a 
redesignation of Sudan and other countries.
    Mr. Smith. I have some additional questions for Tony 
Perkins and Mr. Ismail, and I will go back to that in the 
second round. I would like to yield to Ms. Bass.
    Ms. Bass. Thank you very much, Mr. Chairman.
    I wanted to get a sense from the panel how widespread they 
think apostasy is in countries, one, where we are in conflict 
with, but also in countries where we are allied. And if you 
could respond to that, any of the panelists, I am not sure 
which one of you might know.
    Dr. Jasser. Thank you, Ranking Member Bass. You know, the 
issue of the implementation, as our report on Sudan talks 
about, typically what happens with countries that enact more 
draconian forms of Sharia law, apostasy violations become a 
central part of that as we saw in Afghanistan and in Pakistan 
and in other countries in which the restriction upon the 
implementation of religious freedom is based upon one of the 
red flags for the government being that if somebody leaves his 
or her faith, and apostasy being one of those, but typically it 
is not isolated.
    We see the cries of apostasy, if you look at Raef Badawi in 
Saudi Arabia, he is a Muslim who reports being a Muslim and yet 
he is in jail on a crime of apostasy because the version of 
Islam that he defended was not one in line with the Saudi 
Government. So typically where you see governments like Saudi 
Arabia or Iran or Sudan that implement draconian, more 
restrictive forms of Sharia, apostasy is often one of the 
centerpieces, but linked to apostasy, then, are blasphemy laws 
that the government controls free speech with and then crimes 
against especially women, controlling their ability for dress 
and expression and property. All of that follows the whole 
implementation of Sharia if you will.
    Ms. Bass. So do any of the panelists know exactly what her 
situation is right now? I mean, I realize she is still 
incarcerated, but the Embassy says that there is supposed to be 
a hearing, it is supposed to be an expedited process. Now, I 
heard that a few weeks ago. Obviously, it is not that much 
expedited, but I wanted to know if any of you had information 
on her exact status now.
    Mr. Perkins. The information is not completely reliable. As 
the press reports one thing, Sudanese officials say something 
else, and we often find the two are in conflict. But she is in 
a safe house overseen by----
    Ms. Bass. Is she under house arrest, is that what it is?
    Mr. Perkins. She is not under house arrest. She is actually 
under the watch care of the U.S. Embassy.
    Ms. Bass. Oh.
    Mr. Perkins. And so she has been released from 
incarceration. When she was seeking to leave the country----
    Ms. Bass. Right.
    Mr. Perkins [continuing]. And detain, she was detained for 
a few days in the police station, then released. They had a 
bond and she was released, and she has been released to the 
custody of the oversight of U.S. officials. So she is safe at 
present, as long as she stays where she is. If she moves off of 
the property where she is currently residing, there is concern 
for her safety.
    Ms. Bass. Why can't she leave the country? I mean----
    Mr. Perkins. They have not issued her documents in order 
for her to leave.
    Ms. Bass. Her Sudanese passport?
    Mr. Perkins. Correct.
    Ms. Bass. Was it correct that she was detained because she 
had a South Sudanese passport?
    Mr. Perkins. That is correct information based--that is 
correct based on the information we have.
    Ms. Bass. And do we know where she got that from, why she--
--
    Mr. Perkins. From the South Sudanese Embassy.
    Ms. Bass. You look like you want to respond. Mr. Rees looks 
like he wants to say something.
    Ambassador Rees. Well, I don't--I am not sure it was a 
passport. My reading of--I am just reading the same news 
reports everyone else is. My reading is it was probably a 
travel document issued by the Government of South Sudan, 
because Mr. Wani, who is an American citizen, has dual 
citizenship----
    Ms. Bass. I see.
    Ambassador Rees [continuing]. With South Sudan. And we, the 
United States, issue travel documents to people who are not 
citizens. We issue them, for instance, to lawful permanent 
residents, and it was probably a document like that.
    Ms. Bass. So at this point, what do you think--again, any 
of the panelists--what do you think that we could do to be 
concrete and helpful in this situation now, as it stands now? I 
am not talking about the broader picture but just in terms of 
her and getting her out of the country. Mr. Ismail?
    Mr. Ismail. Thank you, Madam Ranking Member. I think the 
pressure should continue on the Government of Sudan to release 
her, because being there is not serving the purpose of anybody. 
And uniting with her family in the place that she wants to 
travel to is a right of all Sudanese people, and she should 
exercise that right. And she should be given what is called an 
exit visa out of Sudan, and she is free to go to the 
destination of her choice.
    I think without that pressure her situation is going to be 
in jeopardy, and we don't know, because the Government of Sudan 
also is under pressure from some of the fundamentalist 
constituencies. And I would say they brought it on themselves, 
because it would have been one of the many, many, many cases 
that our normal everyday people go to court, but they made a 
political issue out of it.
    And now it backfires and the fundamentalist constituency of 
the government is pushing them, and they are saying, ``You 
shouldn't release this woman because this is a clear case of 
apostasy and we want to prosecute her.'' The government, I 
don't think they are interested, but also I believe there are 
some elements inside the government, because the government is 
now really not in control of everything. I believe there are 
some elements inside the government want to get some mileage 
out of this. At the end of the day, ``Here, the United States, 
we release this person to you. What is in it for us?'' And so 
it becomes, you know, kind of a quid pro quo of some sort.
    So that is also a possibility, but I think it is not 
serving the larger purpose of the bad rap that the government 
has got----
    Ms. Bass. Thank you.
    Mr. Ismail [continuing]. As a result of this case.
    Ms. Bass. Thank you very much.
    Mr. Meadows. I thank the ranking member. I thank each of 
you. I am going to follow up with a few questions and would 
like for you to comment on this. Many people, at times, think 
that the voice to free people like Meriam and her family is 
just silent; they are just a few people, it is a few activists 
here or there. Mr. Perkins, would you say that--could you 
comment on just what you are hearing from either your listeners 
or people that are contacting you from the American people? Can 
you give us a sense of what you are hearing?
    Mr. Perkins. Congressman Meadows, I think the--what we have 
actually seen internationally from Great Britain and how this 
was really a front page story, and leading to the Prime 
Minister making statements on it, is more reflective, really, 
of where the American public is on this issue as we have seen 
hundreds of thousands, there was a White House petition that 
garnered over 50,000 people that signed that in a very short 
window of time, that are concerned about this.
    I think people recognize that there is a correlation 
between religious persecution abroad and the growing religious 
intolerance here at home. And I also think that people realize 
that there was a time when it meant something to be an 
American, that when you were in--you found yourself in trouble 
someplace in the world, that you were not alone.
    Unfortunately, what we are seeing increasingly is that if 
you are an American on foreign soil, and you are held captive, 
you are alone. And I think that scares people. They want to 
return to where it meant something to be an American, and that 
is why I believe people are responding to this and saying 
Congress should do something. I know Members of Congress have 
received lots of phone calls on this, and I know Congress is 
doing what they can.
    I express my public appreciation to you for the work that 
you have done on this particular case, but it is a broader 
symptom of a greater problem with our country here today and 
our defense of religious freedom.
    Mr. Meadows. So, Mr. Ambassador, your comment earlier that 
the State Department does not want to have Congress telling 
them what to do, how can we encourage them? You know, they 
don't express that when they come before this committee for 
authorization or the Appropriations Committee for their budget, 
so I am shocked to hear this kind of information. But what can 
we do to work hand in glove with the State Department? They 
have a difficult job, obviously.
    Ambassador Rees. Well, I think that recognizing a tendency, 
recognizing an institutional tendency, doesn't mean that you 
have to assume that forever after everybody who works for that 
other institution is your enemy. There are many people in the 
State Department who would be very sympathetic on this 
particular case, for instance.
    I think there is one phrase that I remember. I have never 
heard it before or since, but I must have heard it 20, 30 times 
when I was working as a staff member for this committee some 
years ago, and we would be in negotiations with the State 
Department, and they would complain that something on human 
rights or on refugees that went into a little too much detail, 
they would say, ``We know how to handle these cases. We don't 
have to be taught how to suck eggs.'' That was the favorite 
expression.
    So I think that--and it always made me wonder, why would 
anybody want to learn how to suck eggs? But I think that you 
need to reach out, as I know the committee has, to the State 
Department on these issues and say, ``How can we help?'' But 
making clear that help includes an active role in the process, 
an active concern for the outcome.
    And you are right, there are many times when the State 
Department is very anxious for Congress to get involved, but of 
course we used to do the State Department authorization bill 
every 2 years, and the State Department's idea of a great 
authorization bill was, ``Here is $13 billion. Be good.'' 
Whereas, many Members of Congress wanted paragraph after 
paragraph after paragraph about what to do in Haiti and about 
what to do in Sudan, what to do in Burma, and you need to reach 
a mean between those extremes.
    Mr. Meadows. So, Dr. Jasser, let me come to you. There are 
those within the Muslim countries who say that all we are 
trying to do is export our Christian faith. And yet I know in 
the case of Sudan that is really not what this is about. My 
mother went there 51 years ago, I believe, on a medical 
mission. I have friends who served in the Peace Corps, very 
dear friends who served in Khartoum in the Peace Corps. For 
many years, my family and my kids have sent money to provide 
for relief for Sudan, Sudanese people that were in harm's way.
    How do we do a good job of elevating religious freedom and 
liberty without it being one dimensional? Because, really, when 
we look at religious liberty, it is across all faiths, and yet 
sometimes we put a priority on one faith or another in terms of 
what we will or will not tolerate. So how do we do that? How do 
we communicate that to a predominantly Muslim world in North 
Africa and the Middle East?
    Dr. Jasser. Well, you know, I think, Mr. Meadows, that is 
really a wonderful question, and I think that the wisdom of the 
IRFA is that it is about religious liberty for all the citizens 
in the countries that we review and decide their CPC status on. 
And if you look at the citizens, for every--as much as often, 
the religious freedom limitations for minorities can be a 
touchpoint of the conversation.
    One of the things our commission always talks about is the 
fact that within the majority there are those in those 
countries, Sunnis, for example, I, as a Sunni Muslim, know that 
those who have a minority viewpoint within a majority 
population are also as persecuted, if not more, than the 
minorities.
    And I think I would ask anyone, through not only the work 
of our commission but also the implementation of the IRFA 
abroad, in countries to see that it is not specifically related 
to Christian minorities, but really related to any prisoners of 
conscience who have wanted to express their particular practice 
of faith differently and have been arrested for it or have 
suffered because of those expressions.
    And I think that is really what we have been expressing. It 
has not been about advancing or protecting Christianity. I know 
that as a Muslim. But it has been about advancing and 
protecting liberty, and that is when those countries are more 
secure.
    There is no wisdom in believing that protecting only 
minorities protects a country's security. It is about 
protecting freedom for all of its citizens, and that is the 
wisdom of the International Religious Freedom Act. And we hope, 
you know, that an Ambassador is named soon for religious 
freedom who can begin to advance these ideas. That spot has 
been vacant for some time, and I think this would allow the 
world to see that America is not just about protecting our own 
rights but protecting every citizen and their right to the free 
practice of faith or no faith.
    Mr. Meadows. Right. Mr. Perkins, you made a comment in your 
opening statements where you said that we are here because 
someone that was 27 years of age had the courage to stand up 
for her faith. That cut deep to my heart, because in a similar 
situation, knowing that my kids were in a prison, knowing that 
a simple word would release them, I don't know that I would 
have had as much courage, and so it was very convicting.
    I think the other part of that, though, is if a voice of a 
27-year-old woman, mother, that I have never met, I have only 
seen pictures, can cause us to come together and cause us to 
start to understand that religious freedom is not only 
paramount, but it is foundational for who we are as a nation, 
what would you say to the millions and millions of Americans 
that are out there that many times allow us each and every day 
to make small concessions?
    Each and every day we sometimes look the other way, when 
something is said, something is done. We say, ``Well, that is 
just the way things are.'' But yet they continue to get worse 
if we are not willing to stand up as this brave young mother 
has so eloquently articulated. What would you say to them? What 
do we need to do as a nation?
    Mr. Perkins. Well, Congressman Meadows, I think just 
looking at this table is a reflection that is unique to America 
and our understanding of religious freedom. To my right, a 
Muslim; to my left, a Muslim and a Catholic, Protestant, 
Evangelical; and we are here for the same reason. We are here 
not in conflict, but we are here in concert. We are not here 
working against one another, but we are working together for 
someone that none of us have ever met, as you pointed out.
    It is a principle. It is a foundational principle through 
which I would say, as former late Harvard professor Samuel 
Huntington pointed out, that America became an economic 
powerhouse in part because of its religious ethic. That 
provided for the ability for us to be successful as a nation.
    So that silence on behalf of whether it is Meriam and that 
growing persecution abroad--I mean, as we see what is happening 
in Iraq, as it is becoming an Islamic state and Christians are 
being told that either they leave, convert to Islam, or they 
pay an impoverishing tax, or they die, that should be a concern 
for us as Americans. In fact, in our historical record, it has 
been a concern, because this indifference abroad will lead to 
greater religious hostility at home, which ultimately affects 
the well-being and the prosperity of our society as a whole.
    So I believe we must advocate for individuals like Meriam. 
As has been pointed out, there are many more like her, but this 
is one we know about. This is one we cannot escape. We have no 
excuse not to help this mother and her family.
    Mr. Meadows. Well, I want to thank you and your work as the 
American people have reached out. You have been daily, hourly, 
minute by minute, advocating on behalf of Meriam and religious 
freedom, and I want to thank you personally, but also on behalf 
of our Nation, for speaking up for someone who does not have a 
voice, because the silence that so often is deafening cannot be 
something that we tolerate. So I want to thank you.
    Mr. Ismail, let me come to you. You said something earlier 
that said that your belief is the Sudanese Government is 
wanting something from this. You know, what basis--why would 
you say that? So you are saying that it is--the release would 
be predicated on Congress giving them something?
    Mr. Ismail. It is just speculation on my side, that some of 
the elements inside the government might see this as an 
opportunity to gain something from the United States. This 
government is desperate to get recognition, especially from the 
United States, because this is the country that has all kinds 
of sanctions against it. This is the country that designated 
this government to be a sponsor of terrorism.
    This is the country that is not supporting international 
law in the sense that President al-Bashir has been indicted by 
the International Criminal Court, and so on and so forth. So, 
and this is the country where we have a testimony like this 
from all these wonderful people who are trying to support this 
woman in need.
    And in this support, I don't see the support to Meriam 
Ibrahim only. There are 1 million Meriam Ibrahims in Sudan that 
are Christians, that are Muslims, that are practitioners of 
other faiths, that were persecuted daily. The women that were 
sentenced to 40 lashes or 50 lashes because they are wearing 
pants, the women that were without any kind of respect, the 
decency of human beings, were considered indecent in public, 
and they were faced with all kinds of threats and harassment.
    This is a case where the Government of Sudan is trying to 
see if they can--or at least some elements there, to see that, 
well, if we do this, what is in it for us? We have seen from 
Naivasha and even before that when the negotiations for the 
peace agreement, the negotiations to the secession of South 
Sudan, this government is always demanding something.
    They create obstacles, so that when they come and they 
release these obstacles, somebody will say, ``Oh, they did 
this, they are good, so let us reward them.'' And they do just 
enough to get this monkey off their back--that is called the 
international community--and they are not sincere in going the 
extra mile to make sure that they do this in good faith.
    Every single step that they have done, be it negotiation 
with the rebels, be it through, you know, letting the South go 
as they boast, it wasn't because of them. It is because of the 
will of the people of South Sudan that they seceded that 
country.
    So the government is willing to do everything, including 
incarcerating people or detaining them by force, or put them in 
house arrest, so that they can get something out of this.
    Mr. Meadows. Well, let me comment on that, because I--we 
met with some of the Sudanese officials here in Washington, DC, 
as I know Mr. Perkins has, and I think any relationship has to 
be built on mutual trust and respect. But negotiating for 
Meriam's release, with financial or other concessions, is not 
something that is on the table. I think we have made that very 
clear.
    But I am hopeful that if there is a new day in Sudan, that 
this can be the start. And it may be very embryonic, but it 
could be the start of perhaps a new relationship where 
religious freedoms are not only held up, but a relationship 
that is, to both countries, mutual benefit. But to negotiate 
because there is a woman in prison or being held, or thousands 
of others, for small, incremental changes, is not what this is 
about.
    And so, Mr. Ambassador, I want to come back to you before 
your plane. You know, this is the only time I have ever heard 
of applauding a delayed plane, but I thank you for bearing with 
us. You said that the State Department likes for us to say, 
``Okay. Here is $13 billion; go do with it what you will and do 
a good job.''
    How can we encourage them that addressing situations like 
Meriam will foster more of an open, non-earmarked, non-
directive way in terms of finances going forward? Because if 
they are truly standing up for the Meriams or the Saeed 
Abedini's or whomever it may be, I am more willing to look at 
it and say, ``Well, we don't have to put parameters.'' How do 
we do a better job of working with the State Department where 
they can see the will of the American people?
    Ambassador Rees. Well, it is a very big conversation, and 
it is a conversation that has been going on for a long time. I 
remember Senator Helms when he was chairman of the Foreign 
Relations Committee used to say they needed an America desk at 
the State Department. And Secretary Albright responded by 
saying, ``The America desk is me.'' And so--and I believe that 
you need to keep on doing what you are doing. You need to keep 
on having hearings like this.
    I assume the State Department was invited to this hearing. 
Maybe if you have another one they will come and have something 
to say at the appropriate time. I think you need to--I think it 
is okay for Congress to legislate on foreign affairs matters. 
There are some in the executive branch who think that is 
unconstitutional. I don't think it is unconstitutional.
    And I think that the executive branch's job is to execute, 
Congress' job is to make policy. The International Religious 
Freedom Act, the Trafficking Victims Protection Act, these are 
examples of cases where--the State Department resisted both of 
those bills. And it wasn't that they said they didn't agree 
with the objectives. They did agree with the objectives, but 
they didn't think they needed a legal framework in which to 
operate.
    Trafficking at least, once it became law, the Department 
has taken that issue to its bosom. They really do the job. They 
really do the reports well. International religious freedom, I 
think sometimes they do well, but it has taken them a little 
more time to get used to that idea. But you change the 
legislative landscape, gradually people will begin to get used 
to it, and sometimes even to like it.
    Mr. Meadows. Well, I am going to yield to my good friend 
and the chairman of the subcommittee, and I am going to yield 
not only the mike but his chair back to him.
    Mr. Smith. No, no. Stay put. Stay put. Stay put. Thank you 
very much, Mr. Chairman, and thank you for your advocacy, 
because it has been extraordinary. I want the record to show 
that Mark Meadows has been absolutely relentless in pushing all 
of us--didn't take much push for a few of us, but certainly 
made it very clear that this was one of the highest, if not the 
highest priority. So I want to thank him for his leadership.
    I want to thank our distinguished witnesses again for your 
testimonies, which were very comprehensive and I think 
extraordinarily incisive. You know, human rights usually is 
demoted in U.S. foreign policy. That has been my experience. I 
have probably chaired some 500 hearings over the years on human 
rights, and it has never ceased to amaze me how when it talked 
about it is usually page 4, if it is there, in terms of our 
priorities, somewhere at the bottom of page 4. And that is not 
the way it ought to be.
    Recently, we had a hearing on North Korea, and our former 
Special Envoy to Sudan, who is also co-chair of a North Korean 
human rights organization, said that when the Six-Party Talks 
were still underway, he and so many others, including me, tried 
to make human rights a part of that, and it was excluded. So 
when those talks imploded and nothing happened on the nuclear 
issue, we got even less when it came to human rights.
    Same goes with Iran. We have asked Secretary Kerry 
repeatedly to include human rights, and he has not done so. It 
is only the nuclear issue, and that is not going very well 
either.
    If you could perhaps speak to the minimalist effort that I 
believe has been expended. I mean, the President, if he has 
time for golf and time for all of the other things that he 
engages in that would be called recreational, he should pick up 
the phone and call some top leadership. Maybe he wouldn't want 
to talk to al-Bashir. He is an indicted war criminal, and I met 
with him in the year 2005 with Greg Simpkins, and we had more 
of an argument than a conversation. But pick up the phone and 
say, ``We want these Americans to come back.'' That is not a 
heavy lift. And the same goes to Secretary Kerry and others, to 
be in contact with them.
    What is your thought on that? It seems to me that they 
measure the prioritization of administration by how up the 
chain of command they are admonished and even demanded of. What 
is your thoughts on that? Dr. Jasser?
    Dr. Jasser. Thank you, Chairman Smith. You know, I think 
from the perspective of a commission focused on religious 
liberty, one of the reasons for our existence is that we hope 
to push the needle to emphasize the importance that the focus--
the current focus, regardless of what the motivation is--and I 
can't speak for how the State Department chooses its 
priorities, but, you know, if you look at the situation in 
Sudan, the violence that they have tried to address, which has 
been the centerpiece of their current focus, is trying to 
address the violence in places within the states of Southern 
Kordofan, Blue Nile, et cetera. It has failed. We have not done 
anything to address that. Why? Because one of the primary, if 
not the primary, reason for that violence is the use of 
religious repression and institutionalized mechanisms through 
Sharia law and other ways that have prevented religious 
freedom.
    And if that became--if religious liberty became a focus, we 
may then start to make some headways in an embryonic fashion 
with various cases like Meriam's and others that would begin to 
show that we are not only looking to stop the symptom, which is 
violence, but the causes, which is the lack of religious 
freedom and whatever tools, whether it be, you know, draconian 
Sharia law or places like North Korea that are just repressive 
prisons of governments, the bottom line is that the prevention 
of religious freedom, as we know in our history, is the first 
freedom for a reason.
    And, you know, I think that ultimately that needs to become 
a centerpiece of American foreign policy, and we think it will 
then change and move the needle to decrease violence. And as we 
have seen, as Mr. Perkins mentioned earlier, across the world 
from Iraq with ISIS and other places, it is not a coincidence 
that religiously violent organizations are beginning to fill 
this vacuum. And that vacuum needs to be filled with something 
else, and it can only be filled with the idea of religious 
liberty, I believe, as a step toward a solution.
    Mr. Perkins. Mr. Chairman, I think the State Department has 
been busy aggressively pursuing its values and human rights 
priorities, which have not included religious liberty. They 
have been exerting pressure upon foreign governments to abide 
by their values and their views, which are in large part 
inconsistent with the majority of Americans. And I think 
because of that, when we are talking about pushing the LGBT 
agenda on foreign governments and making that a priority at the 
State Department, religious liberty has suffered as a result.
    That has been a higher priority for this administration 
rather than a foundational principle upon which this nation is 
rooted in, and, as we have talked about, the economic success 
of other nations have benefitted from. So I think what we are 
creating by our negligence is greater world instability.
    Now, to verify that, all you have to do is pick up the 
newspaper, and the world is imploding. And what is this 
administration doing? Scant, little, when it comes to these 
core value issues that guarantee the freedom and protection of 
not just American citizens, but the value of human life in 
general and this fundamental principle of religious liberty. I 
think the administration is very busy, but not about the 
people's business.
    Mr. Smith. Thank you.
    Ambassador Rees?
    Ambassador Rees. I do want to put in a good word for some 
of the people who work on these issues in our Government, 
including in the State Department. I said earlier that I think 
it took a while for the bureaucracy, if you will, to warm to 
this issue the way they did to trafficking. Trafficking, very 
early after the passage of the Act, which the State Department 
opposed, they decided to implement it, and they implemented it 
vigorously.
    The International Religious Freedom Act, you could tell the 
first few years they weren't very vigorous. And when I was in 
the State Department, I mean, a week didn't go by that we 
didn't get a memo telling us to do something, a cable telling 
us to do something about trafficking. We didn't get those about 
religious freedom nearly as often.
    I meet with State Department officials. I do a lot of work 
on Southeast Asia, and I meet with--both with the regional 
bureau and with the human rights bureau, the DRL (Democracy, 
Human Rights, and Labor), and with some other bureaus. And in 
recent years I have sensed that the people in DRL at least 
really do take these issues seriously, and they really do know 
more about chapter and verse of what is happening to Montagnard 
Protestants in Vietnam, and what is happening to Hoa Hao 
Buddhists in Vietnam, than they did a few years ago.
    And so I think the legislation is working. The work that 
you are doing, that Congress is doing, to highlight these 
issues, the work that the Commission is doing--I don't know if 
the Commission has had the same experience, but I think there 
was real hostility to the Commission a few years ago within the 
Department.
    I think there are still people in the regional bureaus in 
particular who, as I said earlier, see their job as having a 
good relationship with these other governments. And we all hear 
about knock-down, drag-out battles within the Department where 
the Democracy Bureau, the Ambassador for Religious Freedom, may 
recommend that a certain country be a CPC, and the Embassy in 
that country, the U.S. Embassy in that country and the regional 
bureau come back with everything they have got and they manage 
to defeat that. But that happens in trafficking as well. That 
is just one of the realities of working in institutions is that 
they are not monolithic.
    Mr. Smith. Mr. Ismail?
    Mr. Ismail. Thank you, Chairman Smith. In my view, humbly I 
would say freedom is indivisible. And the people of Sudan, they 
don't have freedom, period. There is no freedom of speech. 
There is no freedom of assembly. There is no freedom to choose 
your religion. There is no freedom to choose anything.
    What we want in Sudan is that the rest of the world, 
including or spearheaded by the United States, helping us gain 
the freedom of the people of Sudan. Freedom, as it is, 
indivisible. Freedom in everything. That is not available 
today. What we need to do with this government, this honorable 
institution, is to push the Government of Sudan to change or 
else.
    We have to say in the loudest voice that this government 
needs to open up. We need more democratization in Sudan. We 
need to give the freedom of the people of Sudan to choose their 
government, to choose whoever they want to represent them, to 
choose their religion, and to have absolute choice on 
everything.
    Without that, we are going--maybe pushing just for 
religious freedom or maybe for freedom of speech, and the other 
freedoms will be curtailed, and we have a freedom that is not 
complete. I think the people of Sudan deserve better. They 
deserve to live like the rest of people in the world, with 
dignity and with respect to their rights.
    Mr. Smith. Mr. Ismail, just ask you a question. It would 
seem to me that in any dictatorship or authoritarian government 
there is always people, even within the government, who could 
be called reformers. Very often, they stay quiet for obvious 
reasons. We saw it after Tiananmen Square. There were a number 
of people, including in the People's Daily, who showed 
themselves. They thought things were changing, and 
unfortunately, when things didn't, they found themselves in 
prison or in the Laogai as a direct result.
    I believe there is at least some tug of war going on in 
Khartoum between some people who would like reform and those 
who do not. My hope is that if we start putting clear lines of 
demarcation, and the international community, and especially 
the U.S. Government, ratchets up significantly the importance--
when I met with President al-Bashir, he spent most of his time 
talking about lifting the sanctions.
    And I said, ``That is not hard to do. There are 
conditionalities attached which have everything to do with 
respecting fundamental human rights and protecting the value 
and the dignity of life. And those sanctions are a goner when 
that happens.''
    We need to ratchet up, I think. And I think, Mr. Perkins, 
your point about other issues becoming prioritized, frankly, I 
have been shocked and dismayed by how many Ambassadors and 
foreign leaders have told me to my face that the LGBT agenda is 
what trumps everything in the U.S. foreign policy. So religious 
freedom, in a way, is seen as an impediment to the advancement 
of that.
    And even the former head of the UNFPA, Dr. Sadik, when it 
came to the abortion issue, said that the last remaining 
barrier to promoting the culture of death worldwide was 
churches and synagogues and mosques, who believe in the 
sanctity of human life, including unborn children.
    So there is a tension, I think, within the State 
Department. I know that DRL has pushed that issue to the 
exclusion of most everything else. And Secretary Clinton's 
statement to the Human Rights Council a couple of years ago 
couldn't be more clear, that that was the priority, to the 
exclusion, I believe, of most everything else.
    So it is a very, very important issue, because now we are 
seeing how it demonstrates on the ground when a woman of faith 
is neglected, at least for several months, and I would say 
mistreated, as well as her children and her husband. You know, 
as I think Ambassador Rees said recently, they are doing things 
that we all can be proud of, but at first there was--and why 
did that--why did it take an outcry by Members of Congress, 
Members of the U.S. Senate, religious freedom NGOs, and others, 
to bring a focus upon this? It seems wrong to me that it takes 
that kind of pressure just to do the right thing.
    So if you wanted to speak to any of that, and then I think 
you have some concluding remarks as well.
    Mr. Meadows. Well, I want to thank the chairman for his 
words. They have actually called votes. We have got just a few 
minutes left, and I want to--this is defining day. It is a 
defining day for America. Are we willing to stand up and say 
enough is enough? And I thank each of you for being here today 
to take time from your busy schedule.
    But it is also a defining day for Sudan. They have a choice 
to make. Either to make a decision that will hopefully provide 
a foundation for moving forward or to make another decision 
that could cause irreparable harm to the relationship going 
forward.
    And so with that, we pray for Meriam's safe arrival in the 
United States, and I thank each of you, and we will adjourn.
    [Whereupon, at 4:29 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]

</pre></body></html>
